IN THE SUPREME COURT OF THE UNITED STATES

No.
Xiao-Ying Yu
Petitioner
V.
Maryland Department of Health and
Maryland Department of Budget and Management
Respondents

PETITIONER'S APPLICATION FOR AN EXTENTION OF TIME WITHIN WHICH
TO FILE AN APPLICATION TO STAY THE JUDGMENT AND PETITION FOR WRIT
OF CERTIORARI TO THE U.S. COURT OF APPEALS FOR THE FOURTH CIRCUIT
To the Honorable John G. Roberts, Jr., Chief Justice of the Supreme Court of the
United States:
Pursuant to 28 U.S.C. § 2101 (c), (e) (f), Rules 13.5, 22, 23, and 30of this Court,
Petitioner, Xiao-Ying Yu prays for a 60-day extension of time to file a Stay and
Petition for a Writ of Certiorari in this Honorable Court, to and including August
24, 2019. The U.S. Court of Appeals at Fourth Circuit ("Fourth Circuit" or "COA4")
issued their denial of Petitioner's motion to recall for mandate on April 22, 2019
(Appendix#1&2, COA4 docket#44&43). The final judgment of the Fourth Circuit
was entered on January 24, 2019 (Appendix#3, COA4 docket#26&27), and denial of
Petitioner's petition for initial/rehearing for en bane was on March 26, 2019
(Appendix#4, COA4, docket#37). Unless extended, the time for filing an application
for a stay and injunction the enforcement of the Fourth Circuit's judgment and
1

petition for writ of certiorari will expire on June 24, 2019. This application is being
filed more than 10 days before that date. The Jurisdiction of the Court would be
involved under 28. U.S.0 1254 (i).
In support of this application, Petitioner states following:
A.

The Case involves the deprivation of the Petitioner's property
right without mediation and a hearing.
Petitioner, Asian American, Xiao-Ying Yu, pro so, was a Maryland State

employee supported by Federal CDC funding and was terminated without
mediation on Nov. 3, 2014, which was within two months after she filed her second
discrimination and retaliation complaints with EEOC under 42 U.S.C. §§ 2000e
seq., Title VII of the Civil Rights Act of 1964 (related to racial and sex
discrimination and retaliation), 29 U.S.C. § 621, e. seq., The Age Discrimination in
Employment Act ("ADEA") and 42 U.S. Code § 12101, The American with
Disabilities Act Law (a)&(b) ("ADA") (Appendix#5). Termination was initiated and
promoted by Petitioner's former supervisor, Ms. Sara Barra. The Maryland
Department of Health Union manager, Ms. Barbara Perry, also participated in the
decision to terminate Petitioner's employment without informing the Petitioner. On
Nov. 2, 2017, Petitioner filed for redress of violation of her civil rights (including
retaliation and termination) with J544 form and a cover letter to clerk under Title
VII, ADEA, ADA, National Labor Standard and 42 U.S.C. § 1983 against MDH and
Maryland Depart of Budget and Management "MDBM" in Federal District Court of
Maryland by certified mail (Case number 17-cv-3260-JKB, see Appendix#6) based
on EEOC's 10/16/2019 right-to-sue letter. And then she amended it with 39 exhibits
PA

the respondents' statement on 5/31/2018 (see the District Court docket, ECF#31)
rather than encompassing a facts and federal laws (based on Petittioner's exhibits)
and judgment of the court itself. These false reasons are: lack of subject matter
jurisdiction, failure to state the cause of claims, and State's immunity to ADA
complaint. The District Court refused Petitioner's request for a second amendment
of her claim on June 26, 2018 by falsely stating that Petitioner's amendment would
not cure deficiencies of lack of subject matter jurisdiction and State's immunity.
The Petitioner's second amendment of her complaints (filed with the District
Court on 7/24/018, within 28 days after District court issued the judgment on
6/26/2018) added evidence newly discovered from the EEOC via a FOTA request
(FOIA affirmed on 7/6/2018). This evidence regarded Ms. Barra's interference with
EEOC's investigation on 4/19/2017 and the providing of false information about
"undue hardship" by MDH Office of Equal Opportunity Program officer, Ms.
Delinda Johnson to refuse reasonable accommodations (see Appendix#9&10). The
new evidence with exhibits were also included in the motion for relief by the
clarification and reconsideration, (filed on 7/24/2018)). All of this new and critical
evidence was returned to the Petitioner without being docketed due to the improper
closure of her case. Also, Petitioner's (7/26/2018) timely filing of a notice of appeal
with exhibits was returned on 7/31/2018 without being docketed even though her
appealing fee was cashed on 7/30/2018. However, when Petitioner followed the
District Court's instruction and filed her motion to extend time for refilling her
notice of appeal on 8/2/2018, the District Court respectively transmitted Petitioner's

4

7/26/2018 notice of appeal to the Fourth Circuit on 8/2/2018 and 8/6/2018 without
p

providing the Fourth Circuit with her notice of appeal-related exhibits. It hid the
EEOC-FOIA newly discovered evidence and brought confusion, which prevented
Petitioner's case from being comprehensively and fairly reviewed by the U.S. Court
of Appeals.
B. The Courts' deëisions involves validity the Due Process and Equal
Protection Clauses of the Fourteenth Amendment to the
Constitution
1. Petitioner requested the Fourth Circuit's intervention within 30 days of
filing her notice of appeal.
Because the Petitioner's motion for relief (via clarification and reconsideration)
and motion for leave to file a second amendment under Fed. Civil P. 60 and 15
(within 28 days from the District court's 6/26/2018 judgment) were returned by the
District court, the Petitioner filed a motion for leave and requested the Fourth
Circuit to intervene and correct the mistakes in the docket records and the
prejudicial actions of the District Court as described above. Yet, the inconsistent,
incorrect and incomplete COA4 docket records influenced by the District Court's
biased actions were not corrected. The Petitioner received a letter from the chief
clerk of the COA4 addressing the denial of newly discovered evidence (affirmed by
EEOC-FOIA on 7/6/2018) regarding Ms. Barra's interference with EEOC's
investigation and MDH Ms. Johnson's unlawful rejection of accommodation, which
Petitioner requested to amend since 11/2/2017 when she filed her initial complaint.
2. Petitioner requested oral argument but never received COA4's notification
of oral argument under Fed. R App. P. 34 W.

5

The Petitioner requested oral argument in her "Informal Brief' on October 1,
2018, but she never received the Fourth Circuit's notification of the oral argument
which was required by Fed. R App. P. 34 (b). Because respondents submitted the
motion for extension of time to file their response to Petitioner's informal brief
(10/1/2018) requesting removal of oral argument on 10/11/2018 (which was on 11th

day after Petitioner's informal brief), Petitioner objected to it and re-emphasized the
reasons for the necessity of the oral argument on 10/15/2018 (COA4 docket#14).
Consequently, the Fourth Circuit case manager, Ms. Cathi Bennett, permitted the
Distiict Court to re-transmit supplemental records on 10/16/2018, and made
alterations and deletions of COA4 docket records on 10/18/2018 (COA4 docket#4
and #is) in favor of the respondents and supported the biased actions made by the
District Court. To such unlawful alteration and deletion of the Court's docket
records on 18t day after Plaintiffs filing her informal brief, Plaintiff filed a motion
with concerns about the docket records, and addressed this issue in her an informal
reply brief and a supplement to the informal brief. These filings were in addition to
her initial request for Fourth Circuit's intervention regarding mistakes and biased
actions on the part of the District court (COA4, docket #7, 14, 23&25).
3. Petitioner's oral argument chance was dispensed, and motion for concerns
about COA4 docket records was mooted and appeal was denied.
Nevertheless, the Court's unpublished opinion, directed by the panel-leading
judge Diana Jane Gribbon Motz, hid the original major cause of the lawsuits: the
respondents' blatant retaliation for Petitioner's protected activities and unlawful
termination without mediation. The opinion also hid the District court's biased

actions. 1 This opinion indicates corruption and abuse of the judge's discretion to
deny reversible errors that existed in the District Court's decision. This unpublished
opinion dispensed with oral argument by using a statement of local rule 34(a)(2)(c)
as an excuse2 to refuse to provide Petitioner an initial hearing which would allow
her to fully argue those reversible errors which the panel judge ignored. Judge Motz
further abused her discretion, and made moot Plaintiffs motion for concerns about
the docket records in the Curium opinion concealing the evidence of interference
with an EEOC investigation by Maryland Department of Health employee Ms. Sara
Barra and the evidence of Maryland Department of Health Office of Equal
Opportunity Program Ms. Delinda Johnson's lies regarding "undue hardship" in
'Judge Motz has worked for 14 years in Assistant Maryland State Attorney General with
responsibilities similar to those of Mr. James Nelson Lewis, who represents employers' interests in
the position of Assistant State Attorney General for Maryland Department of Health; is accustomed
to representing Maryland government employers' interests; and led a panel to create biased opinions
including this case which directed the Court's (1/24/2019) denial of the Petitioner's appeal and denial
of (3/26/2019) petition for rehearing en bane in favor of respondents, (please see Petitioner's petition
for rehearing and rehearing en bane, COA4 docket#26, 27, 29&37 her motion for concerns about
docket records, COA4 docket #17; and Petitioner's application for suspension and motion to recuse,
COA4, docket#38), and deprived the Petitioner's property and equal protection rights under
Fourteenth Amendment.
2

The decision to deprive the Petitioner the due process opportunity of oral argument was

prejudicially made when the Court failed to send the Petitioner a copy of tentative notification of oral
argument under Fed. R. App. P 34(b) and the respondents requested to remove the oral argument on
10/11/2018, which was occurred prior to the panel judges' review of her informal brief, informal reply
brief and supplemental informal brief and related exhibits.
7

order to reject accommodations recommended by the State Medical Director.
4. The panel-leading judge's opinion and directed judgment lacks factual and
legal ground and are in conflict with the decisions of Fourth Circuit,
another United States Court of Appeals and Supreme Court on the same
important matter,
According to Rule 15 (d) Supplemental pleadings, and Rule 29 C.F.R.
1601.12(b), the proof of Plaintiffs exhaustive administrative remedies should not be
neglected. However, the Panel-leading judge's Curiam Opinion affirmed District
Court's statements "Plaintiff does not allege that she received a right—to-sue letter"
for dismissal of her claim under Rule 8 &12 (b)(1)&(6) and "amendment would not
cure the defects of lack of subject matter jurisdiction and state's immunity" for
refusal of Petitioner's request to amend the newly discovery evidence by EEOCFOIA records to deny any of reversible errors and to prohibit Petitioner from
presenting facts at a hearing including oral argument.
In addition, although the respondents failed to provide evidence of pretermination with mediation and any legitimate non-retaliatory reason for their
adverse actions under the McDonnell Douglas Scheme, the Curiam Opinion
affirmed the reason "failure to state claim" made by the District Court to direct the
court's dismissal of Petitioner's appeal. The Curiam Opinion and judgment conflicts
with the relevant decisions by this Court for the workplace retaliation complaints
under Title VII. Godon v. North Carolina Crime Control & Public Safety, et a], (No.
99-2509, 4th Circ. 2000); Goldstein v. Chestnut Ridge Volunteer Fire Co., 218 F 3d
337, 354-58 (4th Cir. 2000); Cromer v. Brown, 88 F.3d 1315, 1325-29 (4th Cir. 1996);
Strothers v. City of Laurel, Maryland (4th Cir. 2018). Jones v. Calvert Group
Limited. No. 07-1680. (4th Circ., 2009).
Furthermore, the Court's decision conflicts with the decisions of other federal
court of appeals on same important matters: Ruth v. State Arknesas DWS No. 171457 (8th Cir. 2017); Fowlkes v. Ironworkers Local 40, No. 12-336-cv (2nd Cir. 2015).
Based on the analyses of Kimel 528 U.S. 62, 120 S.Ct. 631, 145 lEd. 2d 522 (2000)
RI

and others opinions for ADEA and ADA claim, the court "hold that the ADA validly
abrogated 111h Amendment Immunity so that Plaintiffs ADA claims against the
defendants are not barred by the immunity". Cisneros v. United States of America,
Intervenor. No. 98-2215, Part II. (loth Cir. 2000).
Moreover, the decision is also conflict with the decision of that the employee's
federal rights to due process and equal protection of the law was urging revered by
Supreme Court, (Logan v. Zimmerman Brush CO. et al 102 S. Ct, 1148, 455 U.S.
422, 71 L. Ed. 2d 265, 50 U.S. L.W. 4247, 1982. SCT. 40870. Supreme Court has
ruled that individuals may bring actions under 42 U.S.Code. §1983 to offer a
"remedy... against all forms of official violation of federally protected rights," Mon ell
v. Department of Soc. Servs. Of City of New York, 436 U.S. 658, 700 (1978).
This split among the circuit courts of appeals on a substantial question of law
presents a compelling ground for a grant of certiorari. See U.S. v. Davila, 133 S. Ct.
2139, 2145 (2013) (certiorari granted to resolve a Circuit split); see also, Henderson
v. U.S., 135 S. Ct. 1780, 1784 (2015) (same); U.S. v. Kwai Fun Wong, 135 S. Ct.
1625, 1630 (2015) (same). In fact, the existence of an acknowledged circuit split and
conflict on this important question of law, standing alone, creates a "reasonable
probability that [the Supreme] Court will grant certiorari." Moreover, Supreme
Court is likely to grant certiorari and will likely reverse this court's opinion "if the
interest of Congress is clear, that is the end of the matter". 467 U.S. at 842-3. These
facts and legal matters were stated in the amendment of Petitioner's motion to stay
mandate (COA4 docket#36), but were neglected.
C.

The case presents important constitutional questions
A fundamental right of due process is the opportunity to be heard (Armstrong

v. Manzo,380 U.S. 545. 552 (1965)). In pursuit of that right, the Petitioner timely
filed her petition for rehearing en bane and a motion to stay mandate (including the
amendment of the motion to stay mandate, COA4, docket #28, 29, 31&35) and a

motion for due process of initial hearing and reconsideration of the Court's
unpublished opinion (COA4, docket#33). However, her petition for rehearing en
bane was denied on 3/26/2019 because the panel leading judge requested a poll from
other judges of the Court as a barrier and extra difficulty to prevent Petitioner from
receiving a chance for a hearing even though Fed R. App. P 35(f) instructed "A vote
need not be taken to determine whether the case will be heard or reheard en bane."
Consequently, Petitioner had to file an application for suspension of the Court's
judgment and orders, and a motion to request panel—leading judge Metz to recuse
herself (COA4 docket#38, prior to the mandate) as well as a request for Fourth
Circuit to prevent the Court from obstructing equal justice via prejudice and
alteration and deletion of the docket records. Plaintiff also filed a civil action for
Court's help to intervene with the Panel-leading judge's direction of her case under
Congressional enforcement power in order to obtain equal protection for her
constitutional rights (COA4, docket#41&42). Yet, Fourth Circuit wrongfully issued
the mandate, which did not meet the requirement Fed. R. App. P 41(b) because
Fourth Circuit has not issued denying order for Petitioner's motion to stay for the
mandate. Therefore, Petitioner filed her application for recalling the mandate to
review and vacate the panel-leading judge's (1/24/2019) opinion and directed
judgment (COA4 docket#43) on April 19, 2019; however, this application was denied
by the judge's directed court's order on April 22, 2019. The panel-leading judge
intentionally and repeatedly denied the Plaintiff of the fundamental due process
opportunity to be heard at oral argument, rehearing and recalling mandate and

10

prevented the unpublished opinion from being subjected to the Court's review and
consideration of equal justice and constitutional questions. The Fourth Circuit's
(4/15 and 4/22/2019) orders violated Fed. R. App. P. 41(b) and the Congressional
enforcement power for depriving a person of rights or privileges "secured or
protected" by the Constitution or U.S. law (Screws v. U.S. 325 U.S. 91, 98-100).
D.

Reason for Granting an Extension of Time
1. Significance of the impact
On May 6, 2019, Petitioner filed motion for reconsideration of the Fourth

Circuit's order denying her application to recall the mandate and publication of
their unpublished opinion presenting an extraordinary important and serious issue
which would show that the Court's decision was "demonstrably wrong," likely
caused irreparable harm, and violated Fed. H. App. P 34(b) and 41(b), "Due Process"
and "Equal Protection" of Fourteenth Amendment as described above. Petitioner
requested that the Fourth Circuit was needed to review the decisions for the
integrity of justice and the Constitution (COA4, docket#45). Petitioner checked
with the Fourth Circuit on May 29, 2019 but has not received Fourth Circuit's
answer regarding the status of their recalling of the mandate. Petitioner does not
know whether the deadline to file petition for writ of Certiorari should be postponed
due to that Fourth Circuit Court's adjusted judgment based on the process of
recalling the mandate is pending. Nevertheless, the Plaintiff is hoping to obtain
relief based on the good causes described above and may not need to file the petition
for writ of Certiorari and stay with Supreme court.
191

2. Difficulties of the preparation
Petitioner's health and life has been devastated by on-going retaliation after
she reported to her next level manager about the harassment and discrimination
she had encountered because of her age, racial and national origin. The past several
years of judicial process brought Petitioner, who has suffered from anxiety and
depression disorder, tremendous stress. Especially important has been the great
difficulty for Petitioner to prepare both the petition for writ of certiorari and the
application for stay, (including injunction as the court's adjusted initial judgment
due to the process of recalling mandate under the Congressional enforcement power
is still pending in the Fourth Circuit), while she has been preparing documents in
response to the Fourth Circuit Court's orders since she received the Fourth Circuit's
(1/24/2019) judgment and denying her petition for rehearing on March 26, 2019. In
addition, expecting the Fourth Circuit's release of the unpublished Fourth Circuit's
(1/24/2019) opinion is very important for the Petitioner to properly address the

detailed questions and reasons for the panel-leading judge to direct Fourth Circuit's
dismissal of Petitioner's appeal to the honorable Court. Petitioner needs additional
time to search cases and review federal laws to prepare her stay and petition for
writ of certiorari since Petitioner has not received the publication of Fourth Circuit's
opinion.
Furthermore, Petitioner's uncle died of heart failure, and Petitioner's mother
was recently sent to the emergency room twice for her high blood pressure. If

12

Petitioner's application for extension is granted, it would allow Petitioner time to
visit her mother while she is preparing her stay and petition for writ of certiorari.
E.

Conclusion
For these reasons, Petitioner respectfully requests that an order be entered

extending her time (60 days) to have additional time to visit her mother and
prepare for both appropriate stay and petition for this important matter.

Re8pectfull
ia YrngYu
P.O. Box 293
Abingdon, MD 21009
(410)671-9823 (h)

13

Ø%f

